  INSPECTOR GENERAL REVIEW OF
 FISCAL YEAR 2009 DRUG CONTROL
FUNDS AND PERFORMANCE SUMMARY
           REPORTING

National Highway Traffic Safety Administration

         Report Number: FI-2010-040

       Date Issued: February 01, 2010
U.S. Department of                                            Office of Inspector General
Transportation                                                   Washington, DC 20590
Office of the Secretary
of Transportation

February 1, 2010
Mr. Jon E. Rice
Associate Director for Performance and Budget
Office of National Drug Control Policy
Washington, DC 20503
Dear Mr. Rice:

This report presents the results of our independent review of the U.S. Department
of Transportation, National Highway Traffic Safety Administration’s (NHTSA)
fiscal year 2009 Drug Control Obligation Summary and Performance Summary
reports, both dated January 21, 2010, to the Office of National Drug Control
Policy (ONDCP). The reports and our review are required by 21 U.S.C.
§1704 (d).

The objective of our review is to provide assurance that no information came to
our attention that would reverse management’s assertions that the reports
presented complied with ONDCP Circular, Drug Control Accounting,
requirements, 1 in all material respects. This review was conducted in accordance
with the attestation standards established by the American Institute of Certified
Public Accountants and Generally Accepted Government Auditing Standards
prescribed by the Comptroller General of the United States. A review is
substantially more limited in scope than an examination; the objective of an
examination is to express an opinion on the accuracy of NHTSA's Drug Control
Obligation Summary and Performance Summary reports to ONDCP.
Accordingly, we do not express such an opinion.

Drug Control Obligations Summary
We performed review procedures on the accompanying report (Enclosure 1),
NHTSA’s submission (6a), Table of Prior Year Drug Control Obligations. In
general, our review was limited to inquiries and analytical procedures appropriate
for an attestation review based upon criteria specified in the ONDCP Circular.
Specifically, we tested the procedures described in the Internal Control
Questionnaire to ensure drug control funds are properly identified in the
accounting system. We traced the $2.7 million identified in the report to the

1
    May 1, 2007.

Report Number FI-2010-040
                                                                                 2

Department’s accounting system. We also verified that four major drug control
obligations in the accounting system were supported by contracts.

During our review, no information came to our attention that the accompanying
NHTSA's fiscal year 2009 Drug Control Obligation Summary to ONDCP was not
presented in conformity with the ONDCP Circular. Since NHTSA is reporting
$2.7 million in drug control obligations, which is below the $50 million threshold
for full reporting in accordance with the ONDCP Circular, we attest that full
compliance with this Circular would constitute an unreasonable reporting burden.

Performance Reporting Summary and Assertions
We performed review procedures on the accompanying report (Enclosure 2),
NHTSA's fiscal year 2009 Performance Summary Report, and management’s
assertions. NHTSA's fiscal year 2009 performance target was to develop roadside
detection methods for at least five illegal drugs. NHTSA reported that this
performance target was not achieved. The report further stated that an expert
group outside of DOT concluded that the roadside detection technology was not
feasible for use in the near future. Therefore, new performance targets for fiscal
years 2010 and 2011 were developed, including (1) completing a study design of
the crash risk of drug-impaired drivers and (2) collecting data from 1,250 crashes.

In general, our review processes were limited to inquiries and analytical
procedures appropriate for an attestation review based upon the criteria specified
in the ONDCP Circular. Specifically, we reviewed the expert group meeting notes
to support the conclusions stated in the Performance Summary Report. In
addition, we reviewed major drug control contracts to support the performance
measure for significant drug control activities. During our review, no information
came to our attention that the accompanying NHTSA fiscal year 2009
Performance Summary Report is not presented in conformity with the ONDCP
Circular.

Sincerely,




Rebecca C. Leng
Assistant Inspector General for
 Financial and Information Technology Audits
Enclosure(s)

cc: Senior Associate Administrator for Policy and Operations, NHTSA



Report Number FI-2010-040
